No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020—

DIETER RIECHMANN,

Petitioner,
v.

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,

Respondent.

DECLARATION VERIFYING TIMELY FILING

Petitioner, Dieter Riechmann, through undersigned counsel and pursuant to
Sup. Cr. R. 29.2 and 28 U.S.C. § 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 7th day of October, 2020, which is timely

pursuant to the rules of this Court.

MICHAEL CARUSO

FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida By:— Janice L. Bergmann
October 7, 2020. Janice L. Bergmann

Assistant Federal Public Defender
One East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301
Telephone No. (954) 356-7436
